HHS/OIG-Audit--"Review of Aetna Life Insurance Company's Compliance With Working Aged Provisions of the Medicare Secondary Payer Program for the Period January 1,1988 through December 31, 1989, (A-01-90-00509)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Aetna Life Insurance Company's Compliance With Working Aged Provisions of the Medicare Secondary Payer
Program for the Period January 1, 1988 through December 31, 1989," (A-01-90-00509)
February 14, 1992
Complete
Text of Report is available in PDF format (410 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Medicare secondary payer (MSP) program requires Medicare to be the secondary payer for hospital and medical services
provided to certain Medicare beneficiaries. Certain program provisions pertain to beneficiaries age 65 and older who are
covered under employer group health plans (EGHP) based on their own employment or that of their spouses of any age. Based
on our statistical sample of AEtna Life Insurance Company (AEtna) customers, we estimate that as much as $13.6 million
in Medicare payments may have been mistakenly paid during the period January 1, 1988 through December 31, 1989. The mistaken
Medicare payments occurred primarily because beneficiaries did not always give the providers of service, accurate information
on their spouses' EGHP coverage and employment status. As a result, EGHP coverage was not always identified or billed to
the appropriate payer, AEtna.